U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Stephen Gustus v. United States, No. 19-939
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 27,
2020. The government’s response is now due, after one extension, on March 30, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 29, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0939
GUSTUS, STEPHEN
USA

ERIC F. CITRON
GOLDSTEIN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
ECITRON@GOLDSTEINRUSSELL.COM
NICOLE LYBRAND
ASSISTANT FEDERAL DEFENDER
FEDERAL DEFENDERS OFFICE
1401 W. CAPITOL AVE.
SUITE 490
LITTLE ROCK, AR 72201
501-324-6113
NICOLE_LYBRAND@FD.ORG

